No. 20-1008
IN THE

Supreme Court of the United States
STATE FARM LIFE INSURANCE COMPANY,
Petitioner,
v.
MICHAEL G. VOGT,
Respondent.
CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 26th day of February 2021, caused a paper copy of the Brief
of The Chamber of Commerce of the United States of America as Amicus Curiae in
Support of Petitioner to be delivered to the Court and an electronic version of the
document to be delivered to:
Theodore J. Boutrous Jr.
Gibson, Dunn & Crutcher LLP
333 South Grand Avenue
Los Angeles, CA 90071
(213) 229-7804
tboutrous@gibsondunn.com
Counsel for State Farm Life Insurance
Company

Norman E. Siegel
Stueve Siegel Hanson, LLP
460 Nichols Road
Suite 200
Kansas City, MO 64112
(816) 714-7112
siegel@stuevesiegel.com
Counsel for Michael G. Vogt

/s/ Adam G. Unikowsky
Adam G. Unikowsky

